\

r

I
NO.

IN THE
SUPREME COURT OF THE UNITED STATES

V

Thomas P. Keelan - PETITIONER
VS.
UNITED STATES OF AMERICA - RESPONDENT

PROOF OF SERVICE
1/ Thomas P. Keelan/ do swear or declare that on this date/
December 10/ 2020/ as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above
proceeding or that party's counsel.
The Petitioner is locked down because of the COVID-19 crisis.
Research/ typing and copying are exponentially more difficult
than the already deficient resources normally available in
prison. This is a good faith effort to comply with Supreme Court
requirements.
This petition is timely if entered into the legal mail
process on or before Monday/ December 14, 2020. (See Appendix C).
The names and addresses of those served are as follows:
AUSA Vanessa Johanes/ Miami/ FL
Solicitor General of the united States
Eleventh Circuit Court of Appeals/ Atlanta/ GA
I declare under penalty of perjury that the foregoing is true and
correct.
Executed on December 10/ 2020

ReceivedH
JAN -6 2021
SUPREEM^f^Lgj<

L Thomas

ll

P. Keelan

